                                              NUREG/BR-0304

                                      Volume 1, Number 2
                                        November 2003                          Good, Bad, and “Fare” Travel
                                                                               This edition of the OIG Information              tion services obtained at Federal
                                                                               Digest highlights topics pertaining to           Government expense may retain the
                                                                               Government travel that can have a                promotional item for personal use if it
                                                                               positive or negative effect on an NRC            is obtained under the same terms as
                                                                               employee depending on whether                    those offered to the general public
                                                                               Government guidelines are followed.              and at no additional cost to the Fed-
                                                                                                                                eral Government.
                                                                               NRC travel procedures and guide-
                                                                               lines have greatly changed over the              This final rule amended the Federal
                                                                               past 10 years in response to the trav-           Travel Regulation (FTR) by removing
                                                                               eling needs of the Government em-                provisions requiring that promotional
                                                      OIG Information Digest

                                                                               ployee. Per diem rates have in-                  benefits, including frequent flyer
                                                                               creased in an effort to keep pace with           miles earned on official travel, be
UNITED STATES NUCLEAR REGULATORY COMMISSION




                                                                               the cost of travel. Federal employees            considered Government property
                                                                               are now entitled to receive certain              only to be used for official travel.
                                                                               travel benefits that, in the past, were
                                                                               prohibited.                                      Since frequent traveler benefits may
                                                                                                                                now be retained for personal use,
                                                                               Federal Travel Regulation: Using                 you may use
                                                                               Promotional Materials and                        any frequent
                                                                               Frequent Traveler Programs                       traveler
                                                                                                                                benefits you
                                                                               On December 28, 2001, President                  have earned
                                                                               Bush signed into law a provision that            to upgrade
                                                                               Federal employees may retain pro-                your trans-
                                                                               motional items such as frequent flyer            portation
                                                                               miles and travel upgrades for per-               class to business or first class ser-
                                                                               sonal use. The final rule was effec-             vice and for personal air travel. No
                                                                               tive April 12, 2002. The General Ser-            approval is necessary for this up-
                                                                               vices Administration (GSA) is issuing            grade because redeeming your own
                                                                               regulations allowing Federal employ-             frequent flyer miles for an upgrade is
                                                                               ees to retain and make personal use              equal to using your own personal
                                                                               of promotional items earned while on             money. NRC Management Directive
                                                                               official Government travel. A Federal            14.1 will be revised in the near future
                                                                               traveler who receives a promotional              to reflect all these changes. In the
                                                                               item such as frequent flyer miles, up-           meantime, Network Announcements
                                                                               grades to business or first class, or            will be provided to all NRC employ-
                                                                               access to carrier clubs or facilities as         ees with updates and new rules con-
                                                                               a result of using travel or transporta-          cerning travel guidelines.


                                                                                Inside this issue:                                   Special points of interest:
                                                                                Good, Bad, and “Fare” Travel              1-3
                                                                                                                                     • OIG Investigations on Use of Travel Card
                                                                                OIG Audits                                3-4
                                                                                                                                     • OIG Investigations on the Full Share Pro-
                                                                                Identify Theft                            4-5          gram
                                                                                Identity Theft Case Investigated by FTC   5-6        • Audit of Personnel Security Program
                                                                                Computer Security                          6         • Audit of Protection of Safeguards Informa-
                                                                                                                                       tion
Good, Bad, and “Fare” Travel (cont. from page 1)
OIG Investigations on                These personal purchases were        with the Administrative Services
Personal Use of Travel Card          not made in connection with any      Center (ASC) and certify that
                                     official NRC business and, ac-       Metrocheks received under the
OIG continues to receive indica-     cording to NRC travel records,       program will be used solely to
tions of NRC employee misuse         the employee had not traveled        commute to and from work.
of the Government VISA travel        on official NRC business for 5
card which in certain cases          years. This employee was ter-        The ASC also provides order
leads to an investigation. The       minated from the NRC.                forms to redeem a Metrochek for
following are summaries of                                                the other fare media discussed
those investigations:                             NRC’s Full Share        above. Employees may redeem
                                                  Program (MD 13.4        Metrocheks for any of these fare
One OIG investigation deter-                      Part III)               media at the Montgomery
mined that 30 personal pur-                                               County Transportation Office.
chases were made on an                            Management Direc-       Metrochek brochures providing
NRC employee’s Citibank                           tive 13.4, Part III,    additional information on this
Government VISA travel card                       states that as a re-    program are available in the
totaling over $2,500. These pur-     sult of the Federal Employees        ASC. For more detailed infor-
chases were not made in con-         Clean Air Incentives Act of 1994,    mation about the Full Share Pro-
nection with any official Govern-    executive departments and inde-      gram, log onto www.wmata.com.
ment travel and included             pendent agencies may partici-
charges for personal airline tick-   pate in any program established      Regions II and III have subsidy
ets, entertainment, medical          by a State or local government       programs similar to the head-
treatment, gasoline for personal     that encourages employees to         quarters program. Employees
vehicles, and other miscellane-      use public transportation. In ac-    may participate in these pro-
ous expenses.                        cordance with this authority,                        grams by com-
                                     NRC provides employee public                         pleting an appli-
Another OIG investigation dis-       transportation subsidies subject                     cation form pro-
closed that an NRC employee          to budget limitations and the lo-                    vided by their Di-
submitted a fraudulent tempo-        cal transportation environment.                      vision of Re-
rary quarters                                                                             source Manage-
contract to the                      In December 1991, NRC started                        ment and Ad-
Travel Office to                     the Full Share Program by pro-                       ministration. At
obtain $1,400 in                     viding eligible employees with a     this time, Region I does not
reimbursement                        subsidy of up to $21 per month.      have a subsidy program in place
from the Gov-                        That subsidy has now increased       because its offices are not ac-
ernment for compensation that        to a maximum of $100 per             cessible via public transporta-
was improperly paid. This em-        month. At headquarters, this         tion. Region IV provides a sub-
ployee also used the NRC Citi-       subsidy is provided in the form      sidy to employees who partici-
bank VISA card for cash with-        of a Metrochek, a fare voucher       pate in van pools.
drawals totaling over $4,000.        that looks and works like a Met-
This employee was terminated         rorail farecard. Metrocheks can      Employees who qualify for the
from Federal service.                either be used as a metrorail        Full Share Program are given a
                                     farecard or redeemed for other       monthly transit benefit with a
Another OIG investigation deter-     transit media (e.g., Metrobus,       subsidy not to exceed $100.
mined that an NRC employee           Ride-On, or MARC rail).              Each employee must fill out an
made 58 personal purchases on                                             application stating their home
the employee’s NRC Citibank          NRC headquarters employees           address, mode of transportation,
Government VISA travel card          wishing to participate in the Full   and the mileage and cost asso-
which totaled over $10,000.          Share Program must register          ciated with their commute. Each


Page 2                                                                              OIG INFORMATION DIGEST
Good, Bad, and “Fare” Travel (cont. from page 2)
applicant is required to sign the      to and including dismissal from      in the daily commute between
following certification:               employment and possible prose-       home and work. This NRC em-
                                       cution for Federal income                          ployee inappropri-
I hereby acknowledge receipt of        tax evasion.                                       ately received
the Metrochek as a monthly                                                                $2,522 in transpor-
transportation fringe benefit val-     OIG Investigations Con-                            tation benefits.
ued at $$ (total) per month.           cerning Employee Use of
                                       the Full Share Program                            A third NRC em-
This monthly benefit does not                                                            ployee, who
exceed my average monthly              OIG conducted a review of                         claimed to reside in
commuting cost based on a 20-          the NRC Full Share Program to        Washington, DC when, in fact,
day month commute by public            identify potential deficiencies in   the employee resided in Rock-
transportation or eligible van-        the administration of the pro-       ville, MD inappropriately re-
pool.                                  gram.                                ceived $905 in benefits. This
                                                                            employee also misused the sub-
I certify that I will use the fare     As a result of these investiga-      sidy program by using the Full
media purchased under this pro-        tions, OIG found that one NRC        Share Program farecard for per-
gram exclusively for my regular        employee deliberately misused        sonal travel. NRC recovered the
daily direct commute from home         the program subsidy by giving        farecards whose value totaled
to work and return. I will not         the subsidy totaling $1,075.90 to    $2,522.
give, barter, exchange, convey,        a personal friend, and another
or otherwise transfer this benefit     NRC employee falsely certified
to any other person. I under-          two applications for the program
stand and agree that false certi-      when the employee listed a
fication may result in disciplinary    home address that was not used
action taken by my employer up

OIG Audits
Ongoing Audits                         building access and for access to    specifically identifies the de-
                                       sensitive information technol-                     tailed (1) security
Audit of NRC’s Personnel Se-           ogy systems and data. This                         measures of a licen-
curity Program                         audit continues audit work                         see or an applicant
                                       performed during FY 2003 on                        for the physical pro-
NRC’s Personnel Security Pro-          this issue. In FY 2003, audi-                      tection of special
gram makes determinations on           tors focused on the personnel                      nuclear materials or
the initial and continuing eligibil-   security process as it pertains                    (2) security meas-
ity of NRC appli-                      to contractor employees. Dur-                      ures for the physical
cants, consultants,                    ing FY 2004, auditors are focus-     protection and location of cer-
and employees for                      ing on other program compo-          tain plant equipment vital to the
facility access au-                    nents to determine whether the       safety of production or utiliza-
thorizations, em-                      program is effectively managed       tion facilities. NRC established
ployment clear-                        and achieves its goals.              its Sensitive Unclassified Infor-
ances, and access                                                           mation Security Program to en-
to restricted data and national        Audit of NRC’s Protection of         sure that sensitive unclassified
security information. The pro-         Safeguards Information               information is handled appro-
gram also makes determinations                                              priately and is protected from
on the initial and continuing eligi-   Safeguards information is sensi-     unauthorized disclosure under
bility of contractor employees for     tive unclassified information that

NUREG/BR - 0 3 0 4                                                                                         Page 3
OIG Audits (cont. from page 3)
pertinent laws, management di-        mation, (2) prevents the inappro-
rectives, and applicable direc-       priate release of safeguards in-
tives of other Federal agencies       formation to the public and NRC
and organizations. This audit is      employees who should not have
assessing whether NRC’s pro-          access, and (3) adequately de-
gram (1) adequately ensures the       fines what constitutes safe-
protection of safeguards infor-       guards information.


Identity Theft
The problems associated with          twice the 15,864 complaints re-     most popular auction sites is a
identity theft cannot be overem-      ceived in 2001. Ninety percent      column called Seller Information
phasized. Identity theft is be-       of the complaints during 2002       and a link to feedback reviews
coming more and more preva-           pertained to online auctions,       that allow the consumer to read
lent with the ease and access of      compared to 70 percent in 2001.     responses from other consum-
using ATM cards (debit cards) at      The other top complaints per-       ers regarding satisfaction with
most stores and credit cards          tained to general merchandise       the product and response from
over the Internet. Daily radio        sales, Nigerian money offers,       the seller. Be sure to read all
broadcasts describe the numer-        computer equipment and soft-        the comments before you place
ous ways in which members of          ware, and Internet access ser-      your bid.
the public can be victimized by       vices.
identity theft scams. OIG has
published two bulletins describ-                                          Look for information about in-
ing measures to help you avoid        Most auc-                           surance and understand the
falling victim and steps to take if   tion bid-                           terms. Some auction sites offer
you become a victim. Copies of        ders are                            insurance protection, but cover-
this bulletin can be accessed by      looking for                         age is limited to set amounts,
going to the NRC Web site and         bargains,                           there is usually a deductible,
clicking on Inspector General,        hard-to-                            and there may be exclusions; for
OIG Publications, and Fraud           find items,                         example, you may not be able to
Bulletins/Information Digest.         or things                           make a claim if you purchase
The April 2003 bulletin deals pri-    they collect. The average pur-      something from a seller whose
marily with identity theft. This      chase is $100 or less, but some     feedback rating was negative at
bulletin can be downloaded and        people spend much more.             the time of sale.
printed.                              Many buyers pay by sending a
                                      personal check, cashier’s check,
                                      or money order directly to the      Pay the safest way. If you pay
Online Auctions Dominate                                                  the seller directly with a credit
                                      seller. Below is some advice for
Consumer Fraud (Article from the                                          card, you can dispute the
National Consumer’s League)
                                      online auction bidders:
                                                                          charges if the item never arrives
Last year, the National Con-                                              or was misrepresented. You
sumer’s League received a re-         Check the seller’s feedback         don’t have that right if you use a
cord number of complaints             rating if that information is       third-party online payment ser-
about online scams, with com-         available on the auction site.      vice, even if you use your credit
plaints about online auctions ris-    While a positive rating is no       card to put the money into your
ing dramatically. In 2002,            guarantee that you won’t have a     account with the service. How-
36,802 complaints were filed          problem, a negative rating is a     ever, your credit card issuer may
about online scams, more than         danger sign. On one of the          still be willing to help you.


Page 4                                                                              OIG INFORMATION DIGEST
Identity Thief Goes “Phishing” for Consumers’ Credit
Information
An identity thief who allegedly      then asked consumers to enter       company’s identity and then use
used hijacked corporate logos        numbers from a new card to cor-     it to victimize consumers by
and deceptive spam to con con-       rect the problem. It also asked     stealing their credit identities.
sumers out of credit card num-       for consumers’ names, mothers’      This is the FTC’s first law en-
bers and other financial data has    maiden names, billing ad-           forcement action targeting
agreed to settle Federal Trade       dresses, so-                        phishing. It won’t be the last,”
Commission (FTC) charges that        cial security                       he said. The settlement would
his scam violated federal laws.      numbers,                            bar the defendant from future
If approved by the court, the de-    bank routing                        violations of the FTC Act and the
fendant, a minor, will be barred     numbers,                            Gramm-Leach-Bliley Act. It also
for life from sending spam and       credit limits,                      would bar the defendant from
will give up his ill-gotten gains.   personal iden-                      sending spam in the future. In
                                     tification num-                     addition, the order would require
The FTC alleged that the scam,       bers, and AOL screen names          the defendant to give up $3,500
called “phishing,” worked like       and passwords - the kind of data    in ill-gotten gains.
this: Posing as a representative     that would help the defendant
of America Online (AOL), the         plunder consumers’ credit and       An FTC Consumer Alert, “How
con artist sent consumers e-mail     debit card accounts and assume      Not to Get Hooked by a
messages claiming that there         their identity online.              ‘Phishing’ Scam” warns consum-
had been a problem with the bill-                                        ers who receive e-mail that
ing of their AOL account. The e-     According to the FTC, the defen-    claims an account will be shut
mail warned consumers that if        dant used the information to        down unless they reconfirm their
they didn’t update their billing     charge online purchases and         billing information not to reply or
information, they risked losing      open accounts with PayPal. In       click on the link in the e-mail.
their AOL accounts and Internet      addition, he used consumers’        Consumers should contact the
access. The mes-                          names and passwords to         company that supposedly sent
sage directed con-                        log on to AOL in their         the message using a telephone
sumers to click on                        names and send more            number or Web site address
a hyperlink in the                        spam. Finally, he recruited    they know to be genuine.
body of the e-mail                        others to participate in the
to connect to the                         scheme by convincing them      More tips to avoid phishing
“AOL Billing Cen-                         to receive fraudulently ob-    scams can be found at http://
ter.” When con-                           tained merchandise he had      www.ftc.gov/bcp/conline/
sumers clicked on the link they      ordered for himself.                edcams/spam/coninfo.htm.
landed on a site that contained
AOL’s logo, AOL’s type style,        The agency charged the defen-       To file a complaint or to get free
AOL’s colors, and links to real      dant’s practices were deceptive     information on any of 150 con-
AOL Web pages. It appeared to        and unfair, in violation of the     sumer topics, call toll-free, 1-
be AOL’s Billing Center. But it      FTC Act. In addition, the FTC       877-FTC-HELP (1 877-382-
wasn’t. The defendant had hi-        alleged that the defendant’s        4357), or use the complaint form
jacked AOL’s identity and was        practices violated provisions of    at http://www.ftc.gov. The FTC
going to use it to steal consum-     the Gramm-Leach-Bliley Act de-      enters Internet, telemarketing,
ers’ identities as well, the FTC     signed to protect the privacy of    identity theft, and other fraud-
alleged.                             consumers’ sensitive financial      related complaints into Con-
                                     information.                        sumer Sentinel, a secure, online
The defendant’s AOL lookalike                                            database available to hundreds
Web page directed consumers          “Phishing is a two-time scam,”      of civil and criminal law enforce-
to enter the numbers from the        said Timothy J. Muris, Chair-       ment agencies in the U.S. and
credit card they had used to         man. “Phishers” first steal a       abroad.
charge their AOL account. It

Page 5                                                                             OIG INFORMATION DIGEST
Identity Thief... (cont. from page 5)
If you receive unwanted spam              Your complaint will be added           tem and help them stop it in
e-mail you can report it to the           to the FTC's Consumer Senti-           the future. Complain to the
Federal Trade Commission.                 nel database and made avail-           sender's ISP. Most ISPs
Send a copy of any unwanted               able to hundreds of law en-            want to cut off spammers who
or deceptive messages to                  forcement and consumer pro-            abuse their system.
uce@ftc.gov. If you want to               tection agencies. Whenever
complain about a removal link             you complain about spam, it's
that doesn't work or not being            important to include the full e-
able to unsubscribe from a                mail header. Send a copy of
list, you can fill out the FTC's          the spam to your ISP's abuse
online complaint form at                  desk. By doing this, you can
www.ftc.gov.                              let the ISP know about the
                                          spam problem on their sys-

Steps to Computer Security (Article from the National Consumer’s League)
Pick an effective password using             provide consumers with                  hackers who may try to get
numbers and characters. Avoid                faster access to the Internet,          financial and other personal
using obvious things such as                 are increasingly available              information that is stored on
your birth date or your children’s           through telephone compa-                your computer.
or pets’ names.                              nies, cable companies, and
                                             by satellite. If you have           ◊   If you are not using your
◊   Build a firewall. A firewall is          broadband service, you’re               computer for extended peri-
    like the fence around a fort.            always connected to                          ods of time, make sure
    It makes it hard for intruders           the Internet when                            you turn it off. A hacker
    to get into your computer                your computer is                             cannot access a com-
    from cyberspace.                         turned on. When                              puter that is not on.
                                             you’re connected to
◊   Take extra security precau-              the Internet through
    tions when you have broad-               broadband service,
    band Internet access.                    you are more vulnerable to
    Broadband services, which



                                                  Organization
           We’re on the Web! Click on             UNITED STATES NUCLEAR
          the NRC Public Web site and            REGULATORY COMMISSION
         then the link to the Inspector
          General. Follow that link to                   11545 Rockville Pike
            the OIG Hotline and then                       Mail Stop T 5D28
                                                         Rockville, MD 20851
            click on the On-line form.
                                                   Hotline Number 800-233-3497
                                                         Fax: 301-415-5091




                                               Office of the Inspector General


NUREG/BR - 0 3 0 4                                                                                            Page 6
